<html>
<title> - AN OVERVIEW OF THE RADIATION EXPOSURE COMPENSATION PROGRAM</title>
<body><pre>[Senate Hearing 108-883]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-883
 
       AN OVERVIEW OF THE RADIATION EXPOSURE COMPENSATION PROGRAM

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2004

                               __________

                          Serial No. J-108-90

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
25-152                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

DeWine, Hon. Mike, a U.S. Senator from the State of Ohio, 
  prepared statement.............................................    45
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
    prepared statement and attachments...........................    49

                               WITNESSES

Bucholtz, Jeffrey S., Deputy Assistant Attorney General, Civil 
  Division, Department of Justice, Washington, D.C.; accompanied 
  by Dianne Spellberg, Acting Director, Radiation Exposure 
  compensation Program, Department of Justice, Washington, D.C...     3
Houghton, Helen Bandley, San Antonio, Texas......................    16
Thompson, Jeffrey, Jacksonville, Arkansas........................    14
Torres, Rita, Surprise, Arizona..................................    12

                         QUESTIONS AND ANSWERS

Responses of Jeffrey S. Bucholtz to questions submitted by 
  Senator Hatch..................................................    22

                       SUBMISSIONS FOR THE RECORD

Bordallo, Hon. Madeleine A., a Delegate in Congress from the 
  Territory of Guam, prepared statement..........................    28
Bucholtz, Jeffrey S., Deputy Assistant Attorney General, Civil 
  Division, Department of Justice, Washington, D.C.; accompanied 
  by Dianne Spellberg, Acting Director, Radiation Exposure 
  Compensation Program, Department of Justice, Washington, D.C., 
  prepared statement.............................................    29
Daschle, Hon. Tom, a U.S. Senator from the State of South Dakota, 
  prepared statement and attachments.............................    36
Houghton, Helen Bandley, San Antonio, Texas, prepared statement..    72
Thompson, Jeffrey, Jacksonville, Arkansas, prepared statement....    75
Torres, Rita, Surprise, Arizona, prepared statement and 
  attachments....................................................    78


       AN OVERVIEW OF THE RADIATION EXPOSURE COMPENSATION PROGRAM

                              ----------                              


                        WEDNESDAY, JULY 21, 2004

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:52 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senators Hatch and Craig.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. Well, I want to welcome you all to the 
Committee today. Today, the Committee will hear testimony on 
one of my top priorities as Utah's senior Senator, the 
Radiation Exposure Compensation Program, better known as RECA. 
There are few issues in Washington, D.C., as important to my 
fellow Utahns as the viability of RECA.
    The Radiation Exposure Compensation Act, which I authored, 
was signed into law in 1990 and has compensated thousands of 
individuals, government workers and civilians alike, who were 
exposed to harmful radiation as a result of nuclear testing in 
the mid-1950's and 1960's. Some of these individuals worked in 
uranium mines. Many drove the trucks which transported uranium 
ore, and many simply happened to live downwind from a nuclear 
test site.
    The original RECA Act of 1990 established a fund to provide 
compensation to these individuals who were never informed about 
the health hazards associated with radiation and who became ill 
due to their exposure. Many of these individuals live in the 
western United States, but as evidenced by today's second 
panel, RECA claimants come from across the country.
    In 2000, Congress approved and the President signed into 
law the Radiation Exposure Compensation Amendments of 2000, S. 
1525. This law made important changes to the original 1990 Act 
by updating the list of compensable illnesses, primarily to 
include cancers, as well as increasing the scope of individuals 
and States eligible for compensation based on the latest 
scientific and medical information.
    In 2002, additional expansions were approved for the RECA 
program, many of them based on technical comments which were 
provided to the Committee through the Department of Justice. 
Unfortunately, in 2001 a funding shortfall in the RECA program 
resulted in hundreds of individuals not receiving their 
compensation, even though their claims had been approved by the 
RECA office and the Department of Justice.
    Senator Pete Domenici offered an amendment which I strongly 
supported to address this funding shortfall by providing capped 
permanent appropriations through the Department of Defense for 
a 10-year period beginning in fiscal year 2002 and totaling 
$655 million.
    Despite this effort, funding shortfalls persisted. A report 
released by the General Accounting Office in April 2003 
estimated that the funding levels appropriated to the RECA 
trust fund would be insufficient to meet the projected claims. 
Both the Congressional Budget Office and the Department of 
Justice have confirmed that the RECA trust fund is running out 
of money.
    I am pleased to report that the administration took our 
concerns seriously and the President's 2005 budget recommended 
that the RECA trust fund be provided $72 million in 
discretionary money to cover shortfalls in fiscal years 2003, 
2004 and the projected shortfall in 2005. The Senate budget 
resolution also included this money. More recently, the House 
of Representatives passed H.R. 4754, the Commerce, State, 
Justice appropriations bill for fiscal year 2005, and that 
legislation contains $72 million to cover the shortfalls in the 
RECA trust fund for fiscal years 2003, 2004, and the projected 
shortfall for 2005. However, this money would still not resolve 
the funding issues associated with the RECA trust fund.
    According to the April 2003 GAO report, the fund would 
require a total of $107 million through fiscal year 2011. So 
while I am pleased that the administration and my colleagues in 
Congress have recognized our obligation to these folks who are 
owned compensation under RECA, we yet have more work to do.
    We do not want to again experience the problems of 2001, 
when claimants were told that they were eligible for 
compensation, but then had to wait several months to receive 
their monies. I do not want to put RECA claimants through that 
again and I will fight tooth and nail for the funding to make 
RECA whole once again.
    Before I close my opening remarks, I want to raise another 
troubling inequity that I hope the Department of Justice will 
comment on in detail--the difference in compensation among 
energy workers, on-site participants and downwinders. Energy 
workers are compensated $150,000 and have all of their medical 
bills paid. On-site workers are compensated $75,000, but do not 
have medical benefits, and downwinders who were innocent 
bystanders to atomic testing are only compensated $50,000 and 
do not have any medical bills paid. I personally do not 
understand this inequity and will not rest until it is 
addressed.
    There is positive news regarding RECA. In the omnibus 
appropriations bill for fiscal year 2002, I included funding 
for a grant program for education, prevention and early 
detection of radiogenic cancer and illnesses, to be 
administered through the Health Resources and Services 
Administration. Currently, four States--Utah, Colorado, New 
Mexico and Arizona--have grantees.
    In addition, my amendment provided funding so that the 
Department of Health and Human Services could contract with the 
National Research Council to review the most recent scientific 
information related to radiation exposure and associated 
cancers and other diseases. The study also would make 
recommendations as to whether to expand RECA to cover 
additional illnesses, as well as claimants from other 
geographical areas or classes of workers. These recommendations 
would be released in June of 2005 by HHS.
    Further, the National Research Council's Committee 
reviewing this program for HHS will conduct a public meeting 
next week in Salt Lake City, Utah, on July 29. I strongly urge 
anyone who believes he or she is eligible for compensation 
under RECA to attend this meeting.
    Finally, I want members of the Committee to know how 
cooperative I have found the RECA staff to be. This staff has 
come to my State at least three times in the last 3 years, and 
each time they have patiently listened to the concerns of my 
constituents who have been exposed to radiation. I am deeply 
grateful to the entire staff, especially Jerry Fischer, who is 
currently serving our country in Iraq, and Dianne Spellberg, 
the acting director of the RECA program. We are grateful for 
the work that has been done in Utah and I am personally looking 
forward to that hearing. I may not be able to attend because of 
other commitments, but we have made arrangements for the 
Committee to be there.
    On our first panel, we will have Jeffrey Bucholtz, who is 
the Deputy Assistant Attorney General of the Civil Division of 
the Department of Justice. Mr. Bucholtz is here to discuss the 
Radiation Exposure Compensation Program.
    We want to welcome you to the Committee and we appreciate 
you being here today. We recognize you were recently married, 
and we congratulate you for that and wish you the best as you 
appear before the Committee.

  STATEMENT OF JEFFREY S. BUCHOLTZ, DEPUTY ASSISTANT ATTORNEY 
  GENERAL, CIVIL DIVISION, DEPARTMENT OF JUSTICE, WASHINGTON, 
    D.C.; ACCOMPANIED BY DIANNE SPELLBERG, ACTING DIRECTOR, 
RADIATION EXPOSURE COMPENSATION PROGRAM, DEPARTMENT OF JUSTICE, 
                        WASHINGTON, D.C.

    Mr. Bucholtz. Thank you very much, Mr. Chairman. Mr. 
Chairman and members of the Committee, I am pleased to appear 
before the Committee today to discuss the Radiation Exposure 
Compensation Act on behalf of the Department of Justice.
    This is the first Congressional hearing on RECA since 
passage of the amendments of 2000 and enactment of the 
Appropriations Authorization Act in 2002. Both enactments 
changed the original RECA statute in many significant respects, 
markedly expanding the scope of the Radiation Exposure 
Compensation Program. I welcome the opportunity to discuss the 
administration of the program by the Department of Justice, its 
many successes and anticipated challenges. I will begin by 
providing some background for the Committee.
    From 1945 through 1962, the United States conducted 
extensive atmospheric nuclear weapons testing as part of our 
Nation's Cold War security strategy. Critical to this endeavor 
was the processing of uranium conducted by individuals employed 
in the uranium industry. Many of those individuals subsequently 
contracted serious illnesses, including various types of 
cancer, due to their exposure to radiation.
    In order to make partial restitution to those individuals 
for their sacrifices, Congress passed the Radiation Exposure 
Compensation Act on October 5, 1990. RECA provides for 
compassionate compensation to individuals who contracted 
certain specified diseases as a possible result of their 
exposure to radiation or to their surviving beneficiaries.
    Eligible claimants included on-site participants who were 
involved in above-ground nuclear weapons tests, downwinders who 
lived or worked in specific geographical locations downwind of 
the Nevada test site, and uranium miners who were exposed to 
radiation in underground uranium mines.
    On July 10, 2000, Congress passed the Radiation Exposure 
Compensation Act Amendments of 2000 which made important 
revisions to the Act. First, two new claimant categories were 
added--uranium millers involved in the uranium extraction 
process and ore transporters who typically trucked the uranium 
ore from the mine or mill. The 2000 amendments also provided 
additional specified compensable diseases, lowered the 
radiation exposure threshold to make it easier for uranium 
miners to qualify, modified medical documentation requirements, 
removed certain lifestyle restrictions, and expanded the 
downwinder geographic area. Further expansion followed with 
enactment of the Appropriations Authorization Act in November 
2002.
    Since its inception, the program has received over 20,000 
claims. Of these, nearly 12,000 have been approved, totaling 
over $771 million in compensation paid. Of this amount, 
approximately $200 million has been awarded to Arizona 
residents, $187 million to Utah residents, $122 million to 
Colorado residents, and $98 million to New Mexico residents. 
The program is not limited to residents of those States, 
however, and, in fact, has awarded compensation to individuals 
from every State in the Union.
    Since the 2000 amendments were enacted, the overall 
approval rate has risen to 75 percent. In the first fiscal year 
following enactment of the amendments, the program processed 
almost 2,000 claims, representing $94 million in awards, an 
increase of $68 million from the previous year.
    The program is sensitive to the difficulties faced by 
Native American claimants. Although Native American traditions 
often do not provide for creation of certain identification 
documents such as birth certificates and the like, several 
tribes have offices that maintain this type of information. 
Because the Act requires verification of a claimant's identity 
and marital status, the program works closely with those 
offices to assist Native American claimants in satisfying the 
eligibility criteria of the statute.
    Extensive time and effort have been devoted to public 
outreach and educational activities. The program initiated an 
aggressive outreach campaign in spring 2001, participating in 
workshops, training sessions and public meetings. At the 
request of Senators Hatch, Domenici and Daschle, program staff 
have traveled to Utah, New Mexico and South Dakota to 
participate in town hall meetings to answer questions about the 
program.
    An essential component of the program's outreach is to 
establish a strong working relationship with the affected 
Native American communities. Program staff have traveled to the 
Navajo Nation to meet with tribal representatives and members, 
and have participated in several Navajo chapter meetings. Staff 
have also held training sessions for Navajo case workers to 
enable them better to assist RECA claimants. This summer, the 
program is sponsoring a case worker from the Office of Navajo 
Uranium Workers as a RECA intern, and we are hopeful that this 
experience will further reinforce what is already a productive 
relationship.
    Despite the success of the program, the 2000 amendments and 
the Appropriations Authorization Act have presented some 
significant challenges. Foremost among those is the fact that 
the legislative expansion created a need for additional trust 
fund resources. The Act's expansion resulted in a nearly five-
fold increase in claims received. Since the 2000 amendments 
became law, almost 12,500 new claims have been filed and 
funding requirements have grown dramatically.
    Before fiscal year 2001, the RECA trust fund was subject to 
annual discretionary appropriations. Unfortunately, the funding 
provided in the appropriations bills during fiscal years 2000 
and 2001 could not cover the onslaught of new claims being 
filed and the funds were quickly depleted.
    In an attempt to resolve this problem, the National Defense 
Authorization Act for fiscal year 2002 made the RECA trust fund 
a mandatory appropriation and established annual spending caps 
for fiscal years 2002 through 2011 totaling $655 million. The 
cap set by this Act assumed a sharp drop in the number of 
claims filed and approved each year, and thus a correspondingly 
sharp drop in the amount of funding necessary to cover awards.
    However, the rate of decline has been slower than 
anticipated. The immediate shortfall problem is reflected in 
the President's fiscal year 2005 budget, which seeks a 
discretionary appropriation of $72 million to supplement the 
existing fiscal year 2005 spending cap of $65 million. This 
amount would fund the shortfalls experienced in fiscal years 
2003 and 2004 and projected shortfalls in fiscal year 2005. 
This amount was approved in the House appropriations bill for 
the Departments of Commerce, Justice, State and the Judiciary. 
Funding will not be assured, however, unless the Senate and the 
conference agreement also approve this request.
    Despite these challenges, the Department remains dedicated 
to fulfilling the program's mission to provide compensation as 
efficiently as possible to claimants who meet the statutory 
eligibility criteria. The Department is confident that the 
continued cooperative efforts of Congress and the Department 
will position the program for sustained success into the 
future.
    Mr. Chairman, thank you for holding this hearing today and 
for the personal interest you have consistently demonstrated in 
the program over the years. The Department is committed to 
Congress's goal of administering a program that provides 
humanitarian compensation to Americans who jeopardized their 
lives and health in service to the Nation's security during the 
Cold War. I appreciate this opportunity to discuss the RECA 
program with the Committee and would be pleased to answer any 
questions at this time.
    Chairman Hatch. Well, we appreciate you being here. Is it 
pronounced Bucholtz or Bucholtz?
    Mr. Bucholtz. It is Bucholtz, Mr. Chairman. Thank you.
    Chairman Hatch. I had better get that right. I think this 
is the first time I have met you, but we are honored to have 
you here and we appreciate the testimony that you have given 
here today. Let me just ask a few questions.
    Should RECA beneficiaries be concerned that they are going 
to start receiving IOUs somewhere in the near future if funding 
is not approved by the RECA trust fund? If the money is not 
appropriated, when would RECA claimants start receiving the 
IOUs?
    Mr. Bucholtz. Well, Mr. Chairman, the administration is 
very concerned about the possibility that the trust fund would 
be exhausted. As I mentioned and as you mentioned, Mr. 
Chairman, the administration's 2005 budget seeks the $72 
million in additional appropriations to make sure that that 
won't happen during fiscal year 2005.
    If that $72 million is not enacted, in addition to the 
existing $65 million cap, then, as we have said, the trust fund 
would be exhausted, based on our projections, during fiscal 
year 2005. That is precisely why we have made it a priority to 
seek that $72 million in extra funding for 2005.
    Chairman Hatch. How much money does the Department of 
Justice believe is needed to make the RECA trust fund solvent 
through 2011? For instance, an April of 2003 GAO report 
estimates that number to be $107 million through 2011. Does the 
Department of Justice agree with that number, and if not, would 
you please explain any reasons why you do not agree with it?
    Mr. Bucholtz. We do agree, Mr. Chairman, with the GAO that 
a substantial shortfall is likely after fiscal year 2005 
through fiscal year 2011. The most immediate and most precise 
shortfall that we can estimate statistically is for the current 
fiscal year and fiscal year 2005, which we have estimated to be 
$72 million.
    The farther into the future we attempt to estimate 
shortfalls, the less precision, the less certainty that we 
have. The GAO number, as you said, Mr. Chairman, is $107 
million, total, which would be 35 in addition to the 72 that we 
have requested for the coming year.
    The Department of Justice is constantly updating our 
projections, in light of claims receipts and claims paid, to 
try to come up with the most accurate projections that we can 
into the future. Our most current projections suggest that the 
GAO estimate will be on the low side and that total shortfalls 
through 2011 will be somewhat higher than the GAO estimated.
    The GAO's estimate was done over a year ago, and just as 
the caps that are in existing law were based on a projection 
that claims received and claims paid would drop sharply over 
the years, that hasn't happened to the extent predicted. The 
GAO report estimated the outyear shortfall based on their own 
projections of how claims receipts would decrease over the 
years.
    Even in the year and a couple of months since the GAO 
report, we have observed that claims coming in have not 
decreased as quickly as GAO had predicted. So as of now, we 
would expect the GAO estimate to be on the low side and the 
shortfall through fiscal year 2011 to be somewhat higher than 
GAO had predicted.
    I would like to emphasize, though, as I said, that the 
farther into the future we attempt to estimate shortfalls, the 
less precision and the less accuracy we have. That is the same 
phenomenon that has occurred before in this program. So we 
hesitate to try to put any specific number on it into the 
future, but we do think the GAO's estimate will prove to be too 
low.
    Chairman Hatch. Could you give us kind of a rough number?
    Mr. Bucholtz. Well, the GAO estimate again is $35 million 
more than the $72 million appropriation that we have currently 
requested. We don't think that that estimate is wildly off. We 
think that it is likely to be higher than that. Whether it is a 
total of $60 million in addition to the 35 or a total of 70 or 
a total of 80, it is very hard to say. But we don't think it is 
going to be wildly more than the GAO estimate.
    Chairman Hatch. Tell us a little bit about the outreach 
programs that you have and the education programs that the RECA 
office intends to conduct, and tell us how many RECA claimants 
have an opportunity to interact with the RECA office.
    Mr. Bucholtz. Thank you, Mr. Chairman. I would be pleased 
to discuss the outreach that the program has engaged in. In 
particular, the program has engaged in significant outreach, as 
you mentioned, at the request of you, Mr. Chairman, and with 
your office.
    I would like to introduce, next to me, Dianne Spellberg, 
who is the current acting assistant director for the RECA 
program in Jerry Fischer's absence while he is on active duty 
in Iraq, as you mentioned. Dianne Spellberg is doing a great 
job of running the program in Jerry's absence. We are, of 
course, all anxiously awaiting Jerry's safe return.
    But as far as outreach and education efforts, on numerous 
occasions program staff have gone to meet with constituents in 
the affected communities in Utah and in other States, and we 
think it is important to do that. We want everyone who is 
eligible for this program to know about it, to know how to 
apply and to be able to apply. So we have made it a priority to 
engage in those kinds of outreach efforts.
    I would like to let Dianne, who is personally engaged in 
many of those outreach efforts, and who has worked very closely 
with your staff over the years to do so, provide more details 
about our past and our future plans for outreach, if I may.
    Chairman Hatch. That would be great, and we appreciate the 
help you have given to our staff and to me personally and to 
the people who have suffered from this.
    Ms. Spellberg. Thank you very much, Mr. Chairman, and thank 
you for the opportunity to come here today and discuss the 
radiation program. As Mr. Bucholtz stated, our outreach efforts 
are incredibly important to the RECA program. This is how we 
get the word out concerning the availability of compensation to 
downwinders and the uranium worker and on-site participant 
claimants.
    Beginning in spring 2001, the program initiated an 
aggressive outreach campaign. We traveled twice to Utah. On our 
first trip--it was right around the time of the Olympics that 
were going on in your State and it was an exciting time--we met 
individual potential claimants in Richfield, in St. George and 
in Salt Lake City. They were incredibly well-attended, and with 
the help of Patty Deloche, they were very positive and very 
successful. At each of those three events, there were anywhere 
from 50 to 200 individuals that came. Some had questions about 
their claim, some were there to learn about this program.
    Our second trip out to Utah was focused, as well, on the 
downwinder claimants, but also we were able to travel to 
Montezuma Creek, to the Navajo Indian reservation, and met with 
numerous claimants there, uranium miner, uranium miller and ore 
transporter claimants. Again, attendance was very high. The 
trips were very well-organized. We participated in these town 
hall meetings.
    Similarly, we have traveled to a former uranium milling and 
mining town out in the Edgemont mining district in South 
Dakota, and we have also traveled out to the Navajo Indian 
reservation on several occasions in Shiprock, New Mexico, in 
Kayenta, Arizona and Tuba City, Arizona. And we have worked 
with the Office of Navajo Uranium Workers to meet with 
claimants and participate in chapter meetings.
    As you had stated in your opening statement, there is a 
radiation exposure screening and education clinic on the Indian 
reservation that covers the Shiprock, New Mexico, area. We have 
been working with those individuals to help process the RECA 
claims.
    In addition, we have future outreach plans scheduled. As 
you stated in your statement, we will be attending the Salt 
Lake City meeting next week that the National Research Council 
is having to hold a public hearing on RECA. We also intend to 
travel to the San Carlos Apache Indian Reservation in 
September. That is out near Globe, Arizona, and we have plans 
to go back to the Navajo Indian reservation near Shiprock.
    Our office has sent on numerous occasions our case workers 
out to train the case workers that the Navajo office has that 
help the Navajo RECA claimants process their claims. These 
training sessions have been able to really make claims 
processing for these individuals much more efficient.
    Chairman Hatch. That sounds good. I have taken enough time.
    Senator Craig, let's turn to you.
    Senator Craig. Well, thank you, Mr. Chairman. I am here to 
listen and to better understand the issue. We have some 
claimants in Idaho, very few, but it is an important issue and 
I want to support you in your effort.
    Chairman Hatch. Well, thank you. I appreciate that.
    If I could just ask a few more questions, Mr. Bucholtz, I 
really want you to get me a rough estimate for the record so we 
at least have a better understanding. You don't have to do it 
right now, but I am saying within the next week or so I would 
like you to come up with the best estimate you can as to how 
needs to be raised because we need to know that in advance. If 
you would do that for us, I would appreciate it.
    Mr. Bucholtz. Of course, Mr. Chairman.
    Chairman Hatch. Now, in my statement I mentioned the 
discrepancies between the compensation received by energy 
workers, downwinders and on-site participants. Can you explain 
the differences and whether we should do something about the 
differences?
    Mr. Bucholtz. Well, the differences, Mr. Chairman, are as 
you mentioned. The energy workers program, called EEOICA or the 
Energy Employees Occupational Illness Compensation Act, 
provides $150,000 in a flat payment, plus medical expenses 
incurred after the filing of a claim. The RECA statute provides 
for varying amounts of payment, depending on the type of claim.
    But it is hard to compare the two programs, in a sense, 
because they were enacted at different times, in different 
statutes, with different purposes, and they are administered by 
different agencies. The energy program is administered by the 
Department of Labor's Office of Workers' Compensation, and the 
RECA program, of course, is administered by the Department of 
Justice.
    The energy employees program was based on a workers' 
compensation model and is administered by the Workers' 
Compensation Office of the Labor Department. My understanding 
of how the $150,000 plus medical expenses payment amount was 
decided for the energy program was that that was designed to 
approximate the workers' compensation awards that those 
claimants should have been able to recover.
    My understanding is that there were difficulties that those 
claimants encountered in obtaining workers' compensation awards 
that they should have been entitled to, and that the program 
was designed to enable them to get what they should have gotten 
through workers' comp through this program.
    RECA was designed to, as the statute said, provide partial 
restitution to people who suffered radiation exposure because 
of our Nation's Cold War efforts. Of course, people who 
suffered radiation exposure and contracted the diseases that 
are compensable under RECA--no amount of money can provide 
anything like full compensation to RECA claimants. What 
Congress attempted to do is to provide partial restitution, as 
the Act says. At the time the Act and amendments were passed, 
the compensation amounts were chosen with that purpose in mind.
    An additional difference that is important to understand is 
that the energy program is--it is more complicated and more 
difficult for a claimant to obtain compensation under the 
energy program because under the energy program most claimants 
have to go through what is called dose reconstruction. They 
have to prove how much radiation they were exposed to and then 
they have to prove causation. They have to prove that that dose 
that they have been able to reconstruct is scientifically at 
least as likely as not to have caused their disease.
    Under RECA, no one has to prove causation. People only have 
to prove that they were present in a covered downwind area or 
that they were a miner for the required length of time or the 
like. So the RECA program is entirely no-fault. There is no 
need to prove causation. It is in that sense easier for 
claimants to file claims and to recover than it is in the 
energy program.
    Chairman Hatch. We know that last year's appropriations 
bill contained $1 million for administrative functions for the 
RECA office. Is that amount sufficient as we go into the future 
here? If it isn't, what are the office's future needs with 
regard to funding?
    Of course, Ms. Spellberg, you could answer that, too, if 
you would like, but either one of you, or both.
    Mr. Bucholtz. Thank you, Mr. Chairman, for the opportunity 
to address the administrative funding situation. First of all, 
let me say that we are very grateful for the additional $1 
million in administrative funding for the current fiscal year 
that you mentioned. We have been trying to put that to the best 
use possible in large part into two projects designed to 
accomplish capital improvements where the costs are incurred in 
this year and the benefits will be enjoyed long into the 
future.
    We are essentially trying to accomplish two infrastructure 
projects. One is called the Closings Project. The RECA statute 
requires claimants to submit identification and other 
documentation to establish their eligibility, and it requires 
original documents or certified copies. Understandably, 
claimants want to get their documentation back as soon as they 
can because many of them submit original documents.
    The Closings Project is designed to expedite the closing of 
claims files upon payment and to get claimants' original 
documents back to them just as soon as we can, and also just to 
improve the efficiency of the office by closing files promptly.
    The second capital improvement project that we are trying 
to do with the extra $1 million for the current year is to 
create a paperless filing system. Again, the idea is to incur 
costs this year while we have the extra $1 million in 
administrative funding in order to enjoy efficiencies into the 
future.
    We would expect that once we are able to implement a 
paperless filing system, that will increase the efficiency in 
claims processing. Among other things, it will enable us to get 
claims approved sooner, get claimants their money sooner, and 
get claimants their documents back sooner because once we scan 
them into our paperless filing system, we won't need to retain 
the original documents.
    Chairman Hatch. I understand that RECA limits attorneys' 
fees to 2 percent for any claims that are filed after July 10, 
2000. Has this provision limited access to attorneys, in your 
opinion, for people who have genuinely needed legal assistance? 
Have there been any violations of the 2-percent provision, and 
if so, have there been any fines levied?
    Mr. Bucholtz. I don't believe, Mr. Chairman, that the 2-
percent change in the 2000 amendments has limited claimants' 
access to attorneys. I think that the vast majority of 
claimants don't really need attorneys. It is a no-fault 
program, it is a nonadversarial program, and the RECA staff 
works very hard to assist claimants, whether they have an 
attorney or not, in obtaining documentation, often in 
brainstorming on ways to obtain documentation to substitute for 
documentation that may no longer be available.
    Because of the nonadversarial nature of the program, we 
think that most claimants don't need attorneys and we think 
that it is appropriate for as much of the award as possible to 
end up with the claimant rather than going to pay attorneys' 
fees. So in our experience, we do not believe that the 2-
percent attorneys' fees limitation has caused a problem for 
claimants.
    Less than a third of claims are filed by claimants 
represented by an attorney. Over two-thirds of claims are filed 
by claimants on their own, and the approval percentages are 
just about identical after the 2000 amendments for claimants 
with an attorney and without an attorney. So we don't think 
that the 2-percent limitation is unduly limiting access to 
needed legal services.
    In response to the second part of your question, Mr. 
Chairman, I am not aware as I sit here now of an example where 
we have imposed the fine provided for by the statute on an 
attorney who has attempted to collect more than the 2 percent 
amount.
    Let me add one clarification, which is that after the 2000 
amendments the 2-percent limitation applies to new claims, but 
the old attorneys' fees limitation of 10 percent still applies 
to resubmitted claims. So when a claim is denied and then the 
claimant resubmits it--and those, we think, would tend to be 
the more difficult or more complicated claims--those claimants 
are able to pay 10 percent of the claim amount to attorneys on 
resubmitted claims. So we think that that does allow some 
claimants who need attorneys to be able to find attorney 
services more easily.
    Chairman Hatch. Well, you have been very helpful to us. 
This has been very interesting to me because, of course, we 
have taken a tremendous interest in this. It took a long time 
to get this through and the science we developed through the 
hearings that I held on the Labor and Human Resources Committee 
has become the science that has been adopted worldwide. So we 
feel like we have come a long way, but we also feel like there 
are some things that need to be corrected and we would 
appreciate any suggestions that either of you or others in your 
Department or in RECA would care to give us. So any suggestions 
you have, we would love to get them in the future. Just put 
them in writing and get them to us, okay?
    Mr. Bucholtz. Yes.
    Chairman Hatch. Well, thank you for being here.
    Mr. Bucholtz. Thank you very much, Mr. Chairman. It was my 
pleasure and my honor, and I would like to thank you personally 
on behalf of the RECA program for the leadership that you have 
shown on this program and on these issues over the years. I and 
the entire staff very much look forward to continuing to work 
with you and your staff to provide suggestions and help in 
whatever way we can.
    Chairman Hatch. Well, I appreciate that. For a newly 
married man, you have not been nearly as discombobulated as I 
would have been. We are very happy to have you here.
    Mr. Bucholtz. I have had two weeks to recover.
    Chairman Hatch. You had better not say that around your 
wife.
    Well, thank you both for being here. We appreciate having 
you here.
    Mr. Bucholtz. Thank you, Mr. Chairman.
    Chairman Hatch. We look forward to working with you.
    Ms. Spellberg. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bucholtz appears as a 
submission for the record.]
    Chairman Hatch. I would like to take the opportunity now to 
invite our second panel to the table. First, we will have Ms. 
Rita Torres, of Surprise, Arizona. Ms. Torres is from 
Monticello, Utah, and her father, Jose Torres, was a uranium 
miner. After Ms. Torres' father's RECA claim was approved, he 
was given an IOU and, sadly, he never saw his RECA 
compensation. Ms. Torres will talk about the hardships this 
caused her father and other members of her family.
    Next, we will have Mr. Jeffrey Thompson, of Jacksonville, 
Arkansas. Mr. Thompson currently has a claim pending with the 
RECA office and he will testify about the difficulties he has 
encountered with the RECA office in having his claim processed 
in a timely manner.
    Finally, we have Ms. Helen Houghton, of San Antonio, Texas. 
She is a downwind claimant who has been paid the $50,000. She 
will testify about how she feels short-changed in comparison to 
the energy employees and on-site workers who receive 
substantial more money than downwinders and how the $50,000 
does not begin to adequately compensate victims like her.
    I would like to add that all three of these panelists have 
Utah roots, and so we are particularly happy to have you all 
here.
    Ms. Torres, we will take your testimony first.

          STATEMENT OF RITA TORRES, SURPRISE, ARIZONA

    Ms. Torres. Thank you, Mr. Chairman, Committee members. My 
name is Rita Torres. I am a resident of Surprise, Arizona. This 
testimony comes from me, since it cannot come from the person 
who bore the brunt of his excruciating experience, my father, 
Joe Torres. If I could, I would like to read my father's own 
words from a letter that he sent to the President of the United 
States in March of 2001, just before he passed away on March 
21, 2001 from the cancer that he suffered as a result of his 
many years as a uranium miner.
    Dear President Bush, I don't mean to complain, but on the 
other hand I do kind of have a bone to pick with the Federal 
Government. You see, the Federal Government made a promise to 
lots of folks in our part of the country. There was a problem 
and they were trying to fix it. They passed a bill called the 
Radiation Exposure Compensation Act. This sounds great, as we 
have some serious health problems down here where we call home.
    With all the politicians gathered, you might have thought 
that they would have figured this part out. They did not attach 
any funding to the program. Can you believe that? I couldn't 
either, Mr. President. You see, they gave everyone an IOU. I 
wonder to myself how forgiving and patient the IRS would be if 
we all sent them IOUs come April 15th. And I don't know the 
experience you have with cancer, but it is not very patient. It 
eats away at your body, metastasizes into other places that 
cause pain and all kinds of problems. It doesn't seem to want 
to wait while I write my Congressman to see if he can work out 
the pesky little funding details in subcommittees.
    We believe in simple things, including if a man says he is 
going to help you, you can bet he will. You won't have to go 
chase him down and remind him. He will be there early and he 
will stay late until he knows his services are no longer 
needed. So I feel a little sheepish reminding you, Mr. 
President, that approving a program and then not funding it is 
sort of like offering help and then leaving town. It just isn't 
right. My time here on Earth is now very short. I am very tired 
now and would like to know that maybe some of what I do now 
might make it so other folks will not have to wait and be 
forgotten like I was.
    It is hard to fight cancer and fight the Government. I 
received an approval from the Department of Justice stating I 
would receive compensation under the RECA program, because I 
spent many years mining uranium when our country needed it. 
When I received my approval, it was a happy day. It brought me 
great relief just to know that I would be receiving help and 
knowing that the Government hadn't forgotten about me. I was 
also relieved to know that my wife of 55 years, Vicenta Torres, 
might have some assistance to live on until she could join me.
    Once, I was a strong man, glad to work hard all day. But I 
am not match for the pain; it has brought me to tears. It has 
brought my wife to tears as she struggles to make me 
comfortable. It has brought my children to tears to see their 
parents suffer so. I have exhausted all my means and I have 
been waiting for some relief from my Government since the 
approval letter arrived 7 months ago. To near the end with no 
relief from my Government has saddened me very much.
    I have spent a great deal of time lately filling out forms. 
I wonder if doing paperwork is the last thing that I will 
remember before I die. I am trying to understand why I received 
approval 7 months ago, but have not seen a penny yet. Everyday, 
another resident of Monticello, Utah, is informed they have 
cancer. Have you had a son or a daughter die from cancer at a 
young age? It will make you hope for heaven because you are 
living through hell.
    I chuckle to myself to think I am writing to the President 
of the United States. I have nothing for you. I have no access 
to money. I have no influential friends, but I grow weary. I 
cannot continue with this letter, but please look into this 
matter. There are people here, Americans that are as real as 
those that we send money to in foreign countries whenever a 
disaster hits there. I know you are busy, but everyone does not 
have the luxury of too many tomorrows to know that maybe they 
made a difference.
    Thank you, Mr. President. Joe Torres.
    Eight months after my father's death, my younger brother, 
Gary Torres, was diagnosed with stomach cancer. This has 
affected three generations of the Torres family. Please do not 
allow the program to go unfunded. Many are awaiting your 
decisions. We must move forward. IOUs would continue the 
injustice already done to these victims of radiation exposure. 
Many have stepped forward to serve our Government, and now I 
ask you to support your people by not continuing with IOUs and 
funding the RECA program.
    Mr. Chairman, I would like to ask that my father's letter 
to President Bush and the award letter sent to him approving 
his claim and informing him that the program was not funded be 
included as part of my testimony.
    Thank you.
    [The prepared statement of Ms. Torres appears as a 
submission for the record.]
    Chairman Hatch. Well, it certainly will be, and I 
appreciate your testimony.
    Now, we have a vote on the Senate floor. We could try to do 
our testimony, but I don't think that would be fair to you for 
me to try and do it in the next seven or eight minutes. So I 
think what I will do is recess, go over and vote, and then come 
right back so that I can then have some time to ask questions 
of you.
    Your testimony, Ms. Torres, was very touching to me. As 
somebody who has really had to work very, very hard to get the 
RECA program up and running and to get that legislation, I 
remember how difficult it was to get it done even though almost 
everybody admitted that it was the right thing to do. I first 
started on this in 1980 and we didn't get the bill passed until 
1990.
    I had to establish the science that now is adopted all over 
the world with regard to radiation exposure cases, and I can't 
even begin to tell you the difficulty it was to get that bill 
passed. But I really empathize with you and your family for 
what you have been through and for your father and what he went 
through, and your brother.
    I think it would be better for me to go vote so that I give 
you adequate time. So if you will just take it easy until I can 
get back, I will try and hustle over and hustle back. It will 
probably take about 15 minutes or so.
    So with that, we will recess until I can get back.
    [The Committee stood in recess from 11:37 a.m. to 12:17 
p.m.]
    Chairman Hatch. I apologize for taking so long, but I was 
caught by a Washington Post reporter and it took longer to 
answer his questions than I thought it would take. We walked 
over and walked back, too, so I thought that might be enough 
time, but it wasn't. I always have stopped and tried to answer 
reporters' questions, if I can.
    Let's turn to you, Mr. Thompson. I am sorry you had to 
wait, and you also, Ms. Houghton.
    We will turn to you.

     STATEMENT OF JEFFREY THOMPSON, JACKSONVILLE, ARKANSAS

    Mr. Thompson. Mr. Chairman, my name is Jeff Thompson. I am 
a resident of Jacksonville, Arkansas, which is located 15 miles 
northeast of Little Rock. My father was a downwind radiation 
exposure victim. My father, Ward Thompson, was born in 1918 in 
Beaver, Utah, and was employed as an engineer on the railroad 
for over 45 years. He lived in Melford when the Radiation 
Exposure Compensation Act first became law in 1990. My father 
would not have been able to receive compensation because the 
type of cancer he had was not one for which compensation could 
be paid.
    My brother Kenneth, my sister Sue Ann and I are grateful 
for the Radiation Exposure Compensation Act Amendments which 
became law in the summer of 2000. These amendments added colon 
cancer, which is what my father eventually died from in October 
of 2003.
    In February of this year, my brother Kenneth, my sister Sue 
Ann and I filed a claim for compensation under the Radiation 
Exposure Compensation Act. Several weeks after filing the 
claim, we received a short letter from the Radiation Exposure 
Compensation Program which told us that they had received the 
claim and that they would begin processing it. The letter also 
explained that under the law, the Radiation Exposure 
Compensation Program had 1 year to make the decision if our 
claim met the requirements necessary to quality for 
compensation.
    Several months after receiving the first letter from the 
Radiation Exposure Compensation Program, my sister received a 
second letter which told her that she needed to provide a copy 
of the marriage license which showed her marriage to Cliff 
Pace, who had passed away in 1990. My sister Sue Ann told the 
claims examiner that she had the marriage license showing her 
marriage to Cliff Pace, and she asked the claims examiner if 
she needed to send a copy of her marriage showing her marriage 
to Mr. Evan Skeem in 1965, which had ended in 1981.
    My sister was concerned that the marriage license would be 
hard to get, since the marriage had occurred almost 40 years 
before and had happened in another State. She expressed these 
concerns to the claims examiner. The claims examiner responded 
that my sister should send the marriage license that she had in 
her possession, but the examiner gave no indication that my 
sister would have to send the certificate of the first 
marriage.
    On approximately June 15, my sister received a letter from 
a different claims examiner which indicated that the Radiation 
Exposure Compensation Program needed a copy of the marriage 
license from my sister's first marriage to Evan Skeem in 1965. 
My sister is in the process of getting that marriage license 
from Nevada. We are concerned about the delay that may arise in 
processing our claim due to the six weeks that passed between 
my sister receiving the letter that asked for the marriage 
license for her second, more recent marriage and the letter 
that asked for the copy of the marriage license from the first 
marriage.
    We also have another problem with another aspect of the 
claims process. I am not the biological child of Ward Thompson. 
I lived with him for several years before I was legally adopted 
by him in 1974 at the age of 10. I lived with him the rest of 
my childhood years before I reached the age of adulthood. I 
always considered him my father and he always held me out as 
his son. The adoption papers were sealed by the county in which 
the adoption had been finalized.
    After my brother, my sister and I had filed a claim for 
compensation, I received a letter from the Radiation Exposure 
Compensation Program which told me that I needed to obtain 
copies of the adoption papers in order to prove my adoption by 
Ward Thompson. To my brother, my sister and myself, this was 
difficult. We retained an attorney in Beaver, Utah, who filed 
the proper action and was able to have the adoption papers 
unsealed so that we could provide them to the Radiation 
Exposure Compensation Program.
    We have not yet received approval of our claim, but hope to 
have it approved soon. It would mean a great deal to us. The 
financial compensation would be very helpful and having the 
Government acknowledge that it had a hand in causing the cancer 
that required him to suffer. It would also be a comfort to my 
brother and my sister and myself.
    We have heard of other claims that have not been paid 
because people could not find 50-year-old copies of electric 
bills, rent receipts, or other documents proving the details of 
their claims. We would ask you to make the Radiation Exposure 
Compensation Act as easy as you can for the people who file 
these claims.
    Thank you.
    [The prepared statement of Mr. Thompson appears as a 
submission for the record.]
    Chairman Hatch. Thank you. We appreciate your testimony.
    Ms. Houghton, we will takes your now.

    STATEMENT OF HELEN BANDLEY HOUGHTON, SAN ANTONIO, TEXAS

    Ms. Houghton. Thank you, Mr. Chairman. My name is Helen 
Bandley Houghton and I am a downwinder. I grew up in south 
central Utah, in the community of Richfield, in Seveir County. 
I lived in Richfield from 1946 to 1970, leaving the valley to 
attend college and obtain my teaching degree.
    While growing up in the 1950's and 1960's, we lived a life 
that would be described as rural. There was one, maybe two 
fast-food establishments in the community and families did not 
eat out on a nightly basis. As a child, I worked in the garden, 
ate fresh vegetables, drank milk fresh from the cow, and spent 
hours in the city swimming pools. We would sit on the porch and 
watch the clouds from the testing site in Nevada as they 
dissipated over our mountains and streams. Living on Highway 
89, Big Rock Candy Mountain, Zion Canyon and Bryce Canyon were 
the destinations for family rides on a Sunday afternoon. We did 
not know of the damage that was being done to our bodies at 
this time.
    For 3 months each year in high school, I would spend 
mornings in the city pool teaching the children how to swim. 
Needless to say, the other girl who spent those summers with me 
also had cancer. Hers was breast cancer. I had colon cancer. 
This was identified when I was 35 years old, and my doctor did 
nothing except remove the tumors because I was just too young 
to have colon cancer and I did not fit the profile.
    Needless to say, this disease returned 5 years and 17 days 
later. I was lucky enough to have changed school districts and 
obtain cancer insurance. My life as I knew it was now over. I 
could not continue with my Ph.D. in education because I was 
unable to sit in class. I could not mow the lawn, attend 
aerobic classes, or remember a great deal of information.
    Being in education, this was a problem. I had to leave the 
job that I had because I could no longer be under the stress, 
nor could I count on not having problems with my colostomy. It 
can take up to 5 years to get one working properly. I moved 
back to second grade and have gradually worked back into 
curriculum and staff developed. I lost 18 years of my dream 
because of this disease that I did nothing to deserve, except 
be in the wrong place at the wrong time.
    I was now unable to change school districts because of the 
health insurance issues. No one would cover me because of 
preexisting conditions. I could not get insurance on my home 
because I was considered a high risk. I could no longer care 
for my two daughters without a great deal of help from my 
family, who had to come to Texas to help. I was unable to go to 
Utah to live and had to stay close to doctors, who for the next 
10 years were my best friends.
    I cannot comprehend that the Government that I cherish had 
decided to put an unequal value on my medical problems. The 
trucker, the miner, the ground worker at the blast site knew 
what they were doing and the risks they were taking when they 
went into this project. The citizens of southern Utah were told 
there would be no risk.
    My mother died a very painful death from cancer. Hers was 
pancreatic cancer. I have had 18 years of waiting for the other 
shoe to drop and to be told that my cancer has returned. I have 
been unable to retire from teaching after 37 years because I 
must have insurance and I cannot get Medicare or Medicaid until 
I am 65 or 67 years old. It was not unusual for my medical 
bills to be $400 a month, in addition to my co-pay. There are 
times when I have had to argue with my insurance company for 
the tests that the specialists need to do if they are more than 
once a year. This has happened often.
    My 54-year-old brother is now in a hospice home in Orem, 
Utah, waiting to die. They have lost their home, their credit 
and their future. His medical bills have been over $10,000 a 
month because his insurance would not pay for the shots that he 
needed to continue the chemotherapy. Richard has been off work 
for 8 months. He has been bedridden for the past 6 months. They 
have lost everything they had. His soon-to-be widow must now 
find a job at the age of 54 that will provide insurance and a 
living wage, and she has been out of the job market for several 
years. He also had colon cancer.
    Mr. Chairman, my medical bills and expenses are just as 
great as those who drove the trucks of ore through our 
community. My cancer is just as real as theirs. I cannot 
understand why the Government would decide that some people 
would get $150,000, plus lifetime medical benefits, and others 
would not only lose two or three members in a family, but their 
homes, and leave their families with medical bills that seem 
insurmountable.
    I am asking you to please equalize these benefits so our 
legacies will not be ones of despair and poverty. Cancer is an 
expensive illness. You never get better. You go into remission 
for a period of time or you die. Once you have the disease, you 
are simply waiting for the tests to come back positive. I would 
like to know that my mother and my brother will not have died 
in vain. The information that was gained from these tests is 
critical to our world as we know it today. People need to be 
treated fairly and equally when it comes to this illness. The 
cost of this disease has tripled over the past few years for 
us. Please provide the same money for the people of southern 
Utah as you have for the workers.
    Thank you.
    [The prepared statement of Ms. Houghton appears as a 
submission for the record.]

    Chairman Hatch. Well, thank you. I appreciate the testimony 
of all three of you and have great empathy for what you are 
saying here. Let me just ask a few questions.
    Ms. Torres, I will start with you. In your testimony, you 
talk about your father's RECA claim being approved and the fact 
that he had to wait months for it to be paid. Did your father 
ever receive any reports during that time from RECA, from the 
office, regarding the status of his claim?
    Ms. Torres. No, he did not. My father and mother worked 
with an attorney because they didn't understand the paperwork 
process. When I went home, because my father's illness was at a 
point that they needed help, I got involved and tried to make 
phone calls, do paperwork, to inquire as to the status of the 
IOU. Nobody knew what else to do, and this was when I started 
the paperwork process--writing to the President, Justice 
Department, Appropriation Committee members, Senator Hatch and 
Attorney General Ashcroft.
    Chairman Hatch. So I guess your recommendation would be 
this process has to be improved and we need to find a way of 
helping people.
    Ms. Torres. Very much so, because most of the people are in 
a position that the illness has taken over emotionally and 
financially, and somebody has to basically figure out what to 
do. The attorneys couldn't help anymore, we really didn't know 
what to do. We made phone calls and we got transferred around 
to a lot of different people/departments, but we never really 
received anything other than you were approved and received the 
IOU and that was it. No follow up letter.
    Chairman Hatch. Ms. Houghton, in your testimony you talk 
about the death of your mother and how she suffered 
tremendously from the cancer that she contracted. You also 
mentioned your brother, who is in a hospice facility in Orem, 
Utah. I am assuming that both of them could be classified as 
downwinders.
    How many of your total family have wound up being diagnosed 
with--
    Ms. Houghton. There are three of us, Mr. Chairman. I was a 
downwinder, my brother was a downwinder, and my mother was a 
downwinder.
    Chairman Hatch. I see. Now, do you believe it is important 
for downwinders to be compensated for their medical services? 
You want to have the same benefits for medical services as the 
miners have?
    Ms. Houghton. I feel like it should be, especially after--
Richard had excellent medical insurance. He worked for Kentucky 
Fried Chicken in Utah, and they are self-funded and they have 
paid everything that the insurance company has wanted them to 
pay. But it is the $10,000 that he has needed each month for 
the past 8 months for the vomiting and nausea shots that were 
$3,000 apiece.
    Chairman Hatch. Mr. Thompson, let me ask you this. What 
will a downwinder's award mean to you personally?
    Mr. Thompson. I didn't even know about the downwind until 
my brother explained what it was to me. I mean, I was pretty 
young then, you know, when it all happened. My dad--they 
diagnosed him with colon cancer. He had stomach cancer and 
prostate cancer, too. That is in the medical report where he 
passed away. You know, just let the Government know that they 
had a hand in causing a lot of people--one of my sisters passed 
away from brain cancer and she was a downwinder. Her children 
got compensated for it, too.
    I have got a sister that is older than the one that passed 
away and I have got a brother that is younger than the sister 
that passed away. They haven't been diagnosed yet, but they 
were in that area when it happened, so it is very possible that 
they are downwinders, too.
    Chairman Hatch. Ms. Torres and Ms. Houghton, what other 
problems did you have in the process of filing and having your 
claims processed? Do you feel like the staff of RECA responded 
to your inquiries in a timely manner? Did they answer the phone 
calls and written letters?
    Ms. Houghton. We have gone through the process three times. 
When we began with my mother, it was very difficult because her 
cancer was pancreatic cancer and the evaluator, the adjustor 
kept saying that she must be a coffee drinker; it was because 
of her health or her way of life. And it took statements from 
members of the church and doctors to explain that this little 
old woman of 83 didn't drink 75 cups of coffee a day and didn't 
smoke. When we finally got through with that, we have learned 
some of the ways to get through.
    My colon cancer was put in in 2000, when they changed the 
list, and it sat for about 12 months because the gentlemen that 
was supposed to be in charge was on active duty. He had been 
called up and apparently nobody took anything off of his desk. 
And they did not communicate with us, but once we got it going, 
they couldn't have been nicer. They answered our phone calls, 
they answered our questions. They were constantly on top of us, 
but they couldn't do anything.
    And then when Richard's went through, he got his in 
probably six to eight weeks. We couldn't believe it. It had 
come so fast. So we had been through the whole gamut, and I 
never got an IOU. They just said, you know--they didn't send me 
the notice. They just said, you know, just wait. But my problem 
was the young man was on active duty. He had been called up and 
his desk must have been a sacred shrine or something.
    Chairman Hatch. They didn't get right after it.
    Ms. Torres?
    Ms. Torres. I think what happened for us was that we would 
send letters and make phone calls and there was no response. It 
took a long time before we got any information, and most of the 
letters came from your office, Senator Hatch, responding to the 
letters. Otherwise, the Justice Department did not respond nor 
did the Appropriations Committee Members or the President's 
office.
    Chairman Hatch. Well, we know that you had some difficulty 
with requests for documents, and so forth, and we are going to 
try and do what we can to get the office to do a better job.
    Ms. Torres. We also tried through the VA, and that just 
started another process of paperwork.
    Chairman Hatch. As I understand it, the awards that your 
families have received--have they even come close in covering 
the medical expenses, Ms. Houghton?
    Ms. Houghton. No. My hospital stay alone just for my 
initial surgery--and I have had eight operations since then 
because of everything that needed to be done. My first bill was 
$135,000 because I had to stay in the hospital for 18 days when 
the surgery was done the first time in Texas.
    The reason I was so aware of the 5 years and 17 days is 
because the cancer insurance company did not want to cover me 
when I moved to the new district in Texas. But because I had 
been 5 years, they would cover me, and it was right after that 
that found that it had come back. I am a single parent. It was 
just absolutely astronomical. It still is. I still have side 
effects. Because of all the time and the length of the surgery, 
I had a lot of problems with the anesthesia.
    And I would screw up my checking account and the bank would 
call. It finally got to the point where--it was a neighborhood 
bank in San Antonio and they would call to see if I was sick 
again, because I was having trouble with subtraction and that 
seems to be one of the areas that I don't do well anymore. Our 
whole quality of life--I miss my daughters' lives. You know, 
you have got to come home from the hospital because somebody is 
going to the prom, and just everything. They really didn't do a 
whole lot because mom couldn't do it. I would go to school and 
come home and be really happy that I hadn't had to come home 
from school because of problems with my colostomy, which did 
happen. You know, it is pretty embarrassing when you are 
dealing with that kind of stuff.
    Chairman Hatch. I feel real badly about what you have gone 
through.
    Ms. Torres, do you have any comments about that?
    Ms. Torres. Yes. A lot of the burden is financial, and with 
the cancer there is a lot of pain involved. There were 
thousands of dollars that went out especially in the last 
several months to try to make Dad comfortable, and that is 
probably one of the areas that most of the compensation would 
go towards. Obviously, my father didn't have that to start 
with, and he had a larger support system. There were nine of us 
and we all helped with the medication, the bills, and other 
expenses. I quit my job and came home to stay with my parents, 
so I was unemployed for over a year. I exhausted my funds.
    The family did what they could to help me out and to help 
my parents. The financial burden isn't just the illness, it 
does take an entire family's support and involvement. We looked 
to the Government for some that support and there wasn't any.
    Chairman Hatch. Well, we appreciate your testimony. It has 
been very important here today, and we will see what we can do 
about some of these things. I want to thank all of you for 
testifying and bringing your experiences to bear here.
    I think it is vital for both the Committee members and the 
Department of Justice to realize how important it is to 
guarantee the financial solvency of the RECA trust fund so that 
all individuals exposed to radiation will be compensated in a 
timely manner rather than go through what some of you have gone 
through.
    I never want any RECA claimants to receive IOUs once their 
claims have been approved. That is ridiculous as far as I am 
concerned. There just cannot be a repeat of what happened a few 
years ago when claims were approved and instead of money, 
claimants were given IOUs. Those people had to wait for weeks, 
sometimes months, for their compensation, and that just isn't 
right. So I will do everything in my power to provide 
additional funding for the RECA trust fund.
    In addition, I am going to continue my quest to provide 
equity and benefits for downwinders, energy workers and on-site 
participants. There is no reason why downwinders should not 
have their medical benefits covered. That is easy to say, but 
getting the monies to pay for that is going to be a very 
difficult thing. I think there is no reason why downwinders are 
only compensated $50,000. Of course, that is a lot more than 
before, but it is still not adequate, and I know that.
    I do know that the RECA office is making improvements 
everyday and doing the best they can on processing claims, 
public outreach and education. I have seen greater efforts in 
the recent number of months and I sincerely appreciate 
everyone's efforts. However, after listening to you folks on 
this second panel, I believe that it would be wise for the RECA 
staff to consider the suggestions of you panelists and how you 
believe claims processes should be handled and claims should be 
paid.
    Finally, let me just say that the record will be kept open 
for additional statements and questions of anybody on the 
Committee for one week. I want to thank the three of you, in 
particular, and all the witnesses who have testified here today 
because I know that it takes time from busy schedules to come 
and do this. But you are doing a service for a lot of people 
out there who need to be treated better, and let's hope that we 
can help bring that about. I just want to thank each of you for 
being here and thank you for taking the time to be with us and 
help others to benefit from what your experiences have been. I 
know they haven't been good experiences, so let's see what we 
can do to help change that.
    With that, we will recess until further notice.
    [Whereupon, at 12:43 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T5152.001

[GRAPHIC] [TIFF OMITTED] T5152.002

[GRAPHIC] [TIFF OMITTED] T5152.003

[GRAPHIC] [TIFF OMITTED] T5152.004

[GRAPHIC] [TIFF OMITTED] T5152.005

[GRAPHIC] [TIFF OMITTED] T5152.006

[GRAPHIC] [TIFF OMITTED] T5152.007

[GRAPHIC] [TIFF OMITTED] T5152.008

[GRAPHIC] [TIFF OMITTED] T5152.009

[GRAPHIC] [TIFF OMITTED] T5152.010

[GRAPHIC] [TIFF OMITTED] T5152.011

[GRAPHIC] [TIFF OMITTED] T5152.012

[GRAPHIC] [TIFF OMITTED] T5152.013

[GRAPHIC] [TIFF OMITTED] T5152.014

[GRAPHIC] [TIFF OMITTED] T5152.015

[GRAPHIC] [TIFF OMITTED] T5152.016

[GRAPHIC] [TIFF OMITTED] T5152.017

[GRAPHIC] [TIFF OMITTED] T5152.018

[GRAPHIC] [TIFF OMITTED] T5152.019

[GRAPHIC] [TIFF OMITTED] T5152.020

[GRAPHIC] [TIFF OMITTED] T5152.021

[GRAPHIC] [TIFF OMITTED] T5152.022

[GRAPHIC] [TIFF OMITTED] T5152.023

[GRAPHIC] [TIFF OMITTED] T5152.024

[GRAPHIC] [TIFF OMITTED] T5152.025

[GRAPHIC] [TIFF OMITTED] T5152.026

[GRAPHIC] [TIFF OMITTED] T5152.027

[GRAPHIC] [TIFF OMITTED] T5152.028

[GRAPHIC] [TIFF OMITTED] T5152.029

[GRAPHIC] [TIFF OMITTED] T5152.030

[GRAPHIC] [TIFF OMITTED] T5152.031

[GRAPHIC] [TIFF OMITTED] T5152.032

[GRAPHIC] [TIFF OMITTED] T5152.033

[GRAPHIC] [TIFF OMITTED] T5152.034

[GRAPHIC] [TIFF OMITTED] T5152.035

[GRAPHIC] [TIFF OMITTED] T5152.036

[GRAPHIC] [TIFF OMITTED] T5152.037

[GRAPHIC] [TIFF OMITTED] T5152.038

[GRAPHIC] [TIFF OMITTED] T5152.039

[GRAPHIC] [TIFF OMITTED] T5152.040

[GRAPHIC] [TIFF OMITTED] T5152.041

[GRAPHIC] [TIFF OMITTED] T5152.042

[GRAPHIC] [TIFF OMITTED] T5152.043

[GRAPHIC] [TIFF OMITTED] T5152.044

[GRAPHIC] [TIFF OMITTED] T5152.045

[GRAPHIC] [TIFF OMITTED] T5152.046

[GRAPHIC] [TIFF OMITTED] T5152.047

[GRAPHIC] [TIFF OMITTED] T5152.048

[GRAPHIC] [TIFF OMITTED] T5152.049

[GRAPHIC] [TIFF OMITTED] T5152.050

[GRAPHIC] [TIFF OMITTED] T5152.051

[GRAPHIC] [TIFF OMITTED] T5152.052

[GRAPHIC] [TIFF OMITTED] T5152.053

[GRAPHIC] [TIFF OMITTED] T5152.054

[GRAPHIC] [TIFF OMITTED] T5152.055

[GRAPHIC] [TIFF OMITTED] T5152.056

[GRAPHIC] [TIFF OMITTED] T5152.057

[GRAPHIC] [TIFF OMITTED] T5152.058

[GRAPHIC] [TIFF OMITTED] T5152.059

[GRAPHIC] [TIFF OMITTED] T5152.060

[GRAPHIC] [TIFF OMITTED] T5152.061

[GRAPHIC] [TIFF OMITTED] T5152.062

[GRAPHIC] [TIFF OMITTED] T5152.063

                                 <all>

</pre></body></html>
